No.

v>

•V

-4
Supreme Court, U.S.
FILED

JUL 2 4 2020
IN THE
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

William Dale Wooden

— PETITIONER

(Your Name)
vs.

United States of America

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Sixht Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Willaim Dale Wooden
(Your Name)
Forrest City Low - P.O. Box 9000
(Address)
Forrest City, Arkansas 72336
(City, State, Zip Code)
N/A
(Phone Number)

QUESTION(S) PRESENTED

I.

DID THE WARRANTLESS ENTRY AND SEARCH OF PETITIONER'S
HOME VIOLATE HIS FOURTH AMENDMENT RIGHT TO EE FREE
FROM ILLEGAL SEARCH AND SEIZURE?

II.

DID THE SIXTH CIRCUIT ERR BY EXPANDING THE SCOPE OF
18 U.S.C. § 924(e)(1) IN THE ABSENCE OF CLEAR STATUTORY
DEFINITION WITH REGARD TO THE VAGUE TERM "COMMITTED ON
OCCASIONS DIFFERENT FROM ONE ANOTHER? ?

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Constitutional Provisions
FOURTH AMENDMENT
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable searches
and seizures, shall not be violated, and no Warrants shall
issue, but upon probable cause, supported by Oath or
Affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.
FIFTH AMENDMENT
No person shall be held to answer for a capital or other­
wise infamous crime, unless on a presentment or indictment
of a Grand Jury, except in cases arising in the land or
naval forces, or in the Militia, when in actual service
in time of War or public danger; nor shall any person be
subject for the same offence to be out twice in jeopardy
of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor deprived of
life, liberty,, or property, without due process of law;
nor shall private property be taken for public use
without just compensation.

Statutory Provisions
18 U.S.C. § 924(e)(1)
(e)(1) In the case of a person who violates section 922(g)
of this title and has three previous convictions by any
court referred to in section 922(g)(1) of this title for
a violent felony or serious drug offense, or both,
committed on occasions different from one another, such
person shall be fined under this title and imprisoned
not less than fifteen years, and, ,not withstanding any
other provision Pf law, the court shall not suspend the
sentence of, or grant a probationary sentence to, such
persons with respect to the conviction under section
922(g).

LIST OF PARTIES

DKl All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was December 19, 2019
[ ] No petition for rehearing was timely filed in my case.
X A timely petition for rehearing was denied by the United States Court of
9- °
___ , and a copy of the
Appeals on the following date: __ feh *
order denying rehearing appears at Appendix 3
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

IM For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
Unknown
[X reported at
I or,

^Lto

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

STATEMENT OF THE CASE

On November 14, 2014,at approximately 1:00 a.m., Conway
Mason, a narcotics investigator for the Monroe County, TN
Sheriff's Departmenty along with two uniformed.'patrolman met at
the home of William Wooden, ostensibly to seach for a fugitive
whose vehicle had been previously observed parked at Wooden's
home. One

the uniformed officers took up position at the

bottom of the steps of a raised porch out of view through the
front door. Unarmed and without a badge identififying him as a
law enforcement officer, Mason went up the.steps and onto the
porch and proceeded to knock on the door. Mr. Wooden answered
the front door and encountered Mason dressed in civilian clothes,
Mason did not identify himself as a law enforcement officer nor
did he indicate that he and the other two officers were looking
for a fugitive. Mason asked to speak with Janet,'MriiWooden's
common law wife. Without inviting Mason inside, Mr. Wooden said,
"I'll get her,"reached behind the door and then made his way
toward a back bedroom. Mason crossed the threshold, stepping
intd into the home. As Wooden turned to go down the hallway,
Mason noticed

Wooden carrying-. a rifle, apprently retrieved

from behind the front"door. Mason instructed Woodent to "put
the gun down." As Mason entered ithe home, one of the uniformed
patrolman entered right behind him with his service weapon
drawn instructing Wooden to put the weapon down. The patrol
officer handcuffed Wooden and searched him. This officer
removed a revolver, ammunition and prescription pills.
2

Investigator Mason then spoke to Janet Harris (Wooden's
wife) and told her that they were looking for a fugitive and she
gave, the officers permission to look for him in the house. The
officers looked, but did not locate the fugitive they were
allegedly looking for. instead, they did locate a .22 caliber
rifle in the bedroom. At this point, even though Mason had not
identified himselfias a law enforcement officer, he asked Ms.
Harris for permission to search the residence. She consented
by providing written consent.
Wooden was arrested and chrged in State court with being a
felon in possession of a firearm. That case was dismissed on
November 25, 2014

with the district attorney indicating on the

warrant "no probable cause for arrest." On March 3, 2015, Mr.
Wooden was charged by federal indictment with being a felon in
possession of A firearm and ammunition in violation of 18 U.S.C.
§ 922(g)(1) and 924(e).
On July 2, 2015, Wooden filed a Motion to Suppress arguing
that the warrantless entry and search of his home violated his
Fourth Amendment rights. This Motion to Suppress was ultimately
denied. Wooden proceeded tc trial and was found guilty on May
30, 2018.
On February 22, 2019, a sentencing hearing was held. Over
Wooden's objections, the district court found that he qualified
as an Armed Career Criminal under 18 U.S.C. § 924(e) as charged
in the indictment-i'and sentenced him to 188 months imprisonment.
In support of the ACCA enhancement, the district court relied
on a 2005 Georgia burglary of a dwelling and ten (10) separate
3

burglary convictions for Georgia burglary occurring on the same
date, at the same time, and all at the same address, a mini­
storage facility. Mr. Wooden filed a timely notice of appeal
to the Sixth Circuit Court of Appeals, who affirmed the sentence
on December 19, 2019. The mandate was issued on March 5, 2020.
On Appeal, Mr. Wooden argued that it was error for the
district court to deny his motion to suppress evidence in light
of the warrantless entry and search of Mr. Wooden's home. Wooden
also argued that it was error for the district court to count
his ten (10) prior Georgia burglaries as distinct and separate
crime, thus triggering an ACCA sentencing enhancment under
18 U.S.C. § 924(e)(1). Interestingly, the Sixth Circuit held
that § 924(e)(1) did not provide definition of the phrase, "
"committedJon occasions different from one another."
Mr.''Wooden believes that it was error for the Sixth Circuit
to expand the scope of § 924(e)(1) rather than take a narrow
interpretation when the statute is vague. As succinctly stated
recently by Justice Gorsuch in Davis, "a vague law is no law
at all." Mr. Wooden respectfully asks1 this Court to once again
review a portion .iof > § 924(e) as void-for-vagueness .

4

REASONS FOR GRANTING THE PETITION

I. The warrantless entry and search of Petitioner's home violated
his Fourth Amendment right to be free from illegal search and
seizure.
On November 19, 2014, Mr. Wooden received a knock on his
door

at 1:00 a.m. Upon answering the door, Mr. Wooden was faced

with a man in plain clothes, with no weapon, badge

or indication

that he was in-fact associated with law enforcement. He also did
not identify himself as such. The visitor asked to speak with Mr.
Wooden's commonlaw wife, Janet. Mr. Wooden stated "i'll get her"
and then reached behind the front door, retrieved an object, turned,
and started for the hallway. As Mr. Wooden walked away, the
visitor entered the home, followed by a uniformed patrol officer
who had been standing at the foot of the porch stairs beside the
home and out of view of Mr. Wooden. It was precisely this intrusion
where the rights of Mr. Wooden were violated. Apparently, when
Mr. Wooden had retrieved an object from behind the door, that
object was a .22 rifle. When the uniformed officer saw the gun,
he immediately drew his service weapon and ordered Mr. Wooden to
put down the rifle. This officer then handcuffed Mr. Wooden

and

placed him in a chair.
It was later determined that the plain clothes officer was
Narcotics Investigator Conway Mason with the Monroe County, TN
Sheriff's Department. Mason testified at a supression hearing that
prior to entering the home, he asked permission to step in as it
was cold outside. Mason testified that he did not remember

5

Wooden's response but that it was either "yes" or "i'll go get
her." The uniformed officer standing at the foot of the stairs
testified that he did not hear Mason ask permission to enter the
home. Further, this officer was clear that no one gave him the
permission to enter the home. He was simply there to assist
Mason and followed his lead. He did however testify that he drew
his service weapon immediately upon entrance of the home and
handcuffed Mr. Wooden.
At a hearing on Wooden's Motion to Suppress, the trial court
found

that Mason had properly asked permission to enter the home

and Mr. Wooden responded in the affirmative that he could. Relying
on this "consent" to enter, the trial court denied Mr. Wooden's
motion to suppress. The problem is that, even assuming that
Mr. Wooden gave Mason permission to enter, that permission did
not extend to the uniformed officer who Mr. Wooden did not see or
have knowledge of his presence, who entered the home right on the
heels of Officer Mason. It was this specific intrusion that offends
the tenets of the Fourth Amendment.
Mr. Wooden, through counsel, argued on direct appeal to the
Sixth Circuit that the illegal entry and search of his home
violated his Fourth Amendment rights. He asserted that, (1) he
did not consent to the officer's entry into his home, and (2) even
if he did consent, that consent was not valid because the officer
used deception

to attain consent. The Sixth Circuit disagreed

finding that Mr. Wooden's affirmative consent to enter when asked
by Mason was valid and there was no deception used that would
equate to clear error and thus reversal.

6

The Sixth Circuit clearly erred by imposing this erroneous
standard asserting that Wooden's "consent" for Mason to enter the
home clears up any Fourth Amendment violation. Years of prior
precedent is clear. Even assuming that Wooden gave Mason "consent,"
that consent did not extend to the uniformed officer hiding at the
bottom of the porch stairs next to the house. It was the entry of
this uniformed officer without a warrant or probable cause that
violated Wooden's Fourth Amendment rights. It was therefore
error for the Sixth Circuit to find otherwise.
Mr. Wooden respectfully asks this Court to reverse the decision
of the Sixth Circuit finding that his Fourth Amendment rights were
violated by the officer's illegal entry and search of his home.
In order for the Court to better understand that circumstances
surrounding the illegal entry and search of Mr. Wooden's home, a
copy of the transcript from the hearing on the motion to suppress
is attached as Appendix C. A careful review will reveal that the
officers didn't even have a valid reason to be on Mr. Wooden's
property the night in question. The pretext for the visit was that
they were looking for a fugitive whose vehicle had allegedly been
seen at Wooden's house two (2) days before. This pretext was
completely false as the record reveals. If the officer's were truly
looking for this fugitive and believed that he was at the house,
why not just get a valid warrant to conduct a search? This is
because their reasons for being on Wooden's property the night in
question were false. Simply, they had no business to be there.

7

II. The Sixth Circuit erred by expanding the scope of 18 U.S.C.
§ 924(e)(1) in the absence of clear statutory definition with
regard to the phrase "committed on occasions different from
one another."
On the night of October 24-25, 1997, Mr. Wooden and three (3)
other co-defendants burglarized a mini-storage facility in
Whitfield County, Georgia. The defendants burglarized ten (10)
storage units at the same address within the same facility.
18 U.S.C. § 924(e)(1)

s tates:

In the case of a person who violates 922(g) of this title
and has three previous convictions by any court referred
to in section 922(g)(1) of this title for a violent
felony or a serious drug offense, or both , committed on
occasions different from one another, such person shall
be fined" under this title and imprisoned not less than
fifteen years, and, notwithstanding any other provision
of law, the court shall not suspend the sentence of,
or grant probationary sentence to, such person with
respect to the conviction under section 922(g).
18 U.S.C. § 924(e)(1)(emphasis added).
Because of his ten (10) burglary convictions, Mr. Wooden was
sentenced as a Armed Career Criminal to 188 months imprisonment.
The sentencing court found that even though the burglary crimes
were committed contemporaneous to each other, i.e., same time, same
place, no intervening arrest, they were still ten separate crimes
"committed on occasions different from one another."
On direct appeal. Mr. Wooden, through counsel, argued that
his ten prior Georgia Burglary convictions should be treated as
one criminal episode, and thus one conviction for ACCA purposes.
In affirming this ACCA sentence, the Sixth Circuit expanded the
scope of § 924(e)(1) rather than pursue a narrower interpretation.
The Sixth Circuit readily admits that § 924(e)(1) with regard to
"committed of occasions different from one another" is vague.
8

But then seeks to save the statute by stating:
"In the absence of additional statutory direction, our
prior decisions have helped fill this interpretive gap,
albeit with some lack of precision."
This expansionalist view defies logic when viewed through the lens
of strict statutory construction. As Justice Gorsuch recently
opined in United States v. Davis

et al, 588 U.S.

(2019),

"$n~'our constitutional order, a vague law is no law at all."

He

further states, "When Congress passes a vague law, the role of the
courts under our constitution is not to fashion a new, clearer law
to take its place, but to treat the law as a nullity and invite
Congress to try again."
lather than treat the statute, § 924(e)(1) as vague, the Sixth
Circuit established "at least three indicia that offenses are
separate from each other":
Is it possible to discern the point at which the first
offense is completed and the subsequent point at which
the second offense begins?
Would it have been possible for the offender to cease his
criminal conduct after the first offense and withdraw
without committing the second offense?
Were the offenses committed in different residences or
business locations?
See United States v. Hill, 440 F.3d 292, 297-98 (6th Cir. 2006);
See also United S~tat~es v." Paige, 634 F.3d 871, 873 (6th Cir. 2011).
So rather than treat the law as a nullity and invite Congress to
try again, the Sixth Circuit "expanded" the .scope of § 924(e)(1)
concerning the phrase "...committed on occasions different from
one another" and established the above three indicia

to determine

what the statute means. The explanation is that the Sixth Circuit
"sharpened the different occasions inquiry by focusing the court
onthe kinds of questions that have come up in prior ACCA cases."
9

Against the backdrop of this expansionalist view, the Petitioner
believes that it was error for the Sixth Circuit affirm his ACCA
sentence even though the term "...committed on occasions different
from one another" is constitutionally vague. Suprisingly, the
Sixth Circuit does recognize that the above phrase lacks "statutory
direction," but still persisted in reaching to "save" the statute
rather than reject it and invite Congress to try again.

10

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

tnrb^-'
Date:

."Tt-I\y H

11

